 

IN THE
Supreme Court of the United States

BNSF RAILWay COMPANY,

Petitioner,
v.

ROBERT DANNELS,
Respondent.

On Petition For A Writ Of Certiorari
To The Supreme Court Of
The State Of Montana

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,723 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2021.

 

Wilson-Epes Printing Co., Inc.
